No. 20-940

In the Supreme Court of the United States

Alaska,
Petitioner,

Vv.

Sean Wright,
Respondent.

On Petition for a Writ of Certiorari
to the U.S. Court of Appeals
for the Ninth Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 83.1(h), I certify that the Brief in
Opposition for Respondent Sean Wright in the above-entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in Century
Schoolhook 12 point for the text and 10 point for the footnotes, and that the Brief in
Opposition contains 3,160 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).

T declare under penalty of perjury that the foregoing is true and correct.

Executed on March 10, 2021.

Stuart Banner

UCLA School of Law
405 Hilgard Ave.

Los Angeles, CA 90095
(310) 206-8506
banner@law.ucla.edu
Counsel for Respondent
